No. 20-569
IN THE

Supreme Court of the United States
ELIM ROMANIAN PENTECOSTAL CHURCH and LOGOS BAPTIST MINISTRIES,
Petitioners,

v.
JAY ROBERT PRITZKER, in his official capacity as Governor of the State of Illinois,
Respondent.

_______________
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Seventh Circuit
_______________
AMICUS CURIAE BRIEF OF AMERICAN CENTER FOR LAW AND
JUSTICE IN SUPPORT OF PETITIONER
CERTIFICATE OF WORD COUNT
Jay Alan Sekulow, a member of the Bar of this Court and an attorney for amicus,
pursuant to Rule 33.1(h), hereby certifies that the Amicus Curiae Brief of the
American Center for Law and Justice in Support of Petitioners complies with the word
limitations of Rule 33.1(h). The brief, excluding the parts mentioned in Rule 33.1(d),
contains 912 words, including footnotes.

/s/ Jay Alan Sekulow
Jay Alan Sekulow
November 30, 2020

